<html>
<title> - OVERSIGHT ON CHAIRMAN'S DRAFT, ``FEDERAL FORESTS EMERGENCY ACT OF 1999''</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
   OVERSIGHT ON CHAIRMAN'S DRAFT, ``FEDERAL FORESTS EMERGENCY ACT OF 
                                 1999''

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                     MARCH 23, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-19

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
56-677                       WASHINGTON : 1999



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JOHN J. DUNCAN, Jr., Tennessee       ADAM SMITH, Washington
JOHN T. DOOLITTLE, California        DALE E. KILDEE, Michigan
WAYNE T. GILCHREST, Maryland         OWEN B. PICKETT, Virginia
JOHN PETERSON, Pennsylvania          RON KIND, Wisconsin
RICK HILL, Montana                   GRACE F. NAPOLITANO, California
BOB SCHAFFER, Colorado               TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
                                     ---------- ----------
                                     ---------- ----------
                     Doug Crandall, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                  Jeff Petrich, Minority Chief Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 23, 1999...................................     1

Statements of Members:
    Aderholt, Hon. Robert, a Representative in Congress from the 
      State of Alabama...........................................     3
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     1
        Prepared statement of....................................     2

Statements of witnesses:
    Hamilton, Stanley, Director, Idaho State Department of Land, 
      Boise, Idaho...............................................     4
        Prepared statement of....................................    40
    Hayes, Roger, Chairman, Winston County Commission, Double 
      Springs, Alabama...........................................     9
        Prepared statement of....................................    58
    Key, Sandra, Associate Deputy Chief, Programs and 
      Legislation, U.S. Forest Service...........................    23
        Prepared statement of....................................    32
    Phelps, Jack E., Executive Director, Alaska Forests 
      Association, Ketchikan, Alaska.............................     7
        Prepared statement of....................................    31

Additional material supplied:
    Text of Bill.................................................    35


   OVERSIGHT ON CHAIRMAN'S DRAFT, ``FEDERAL FORESTS EMERGENCY ACT OF 
                                 1999''

                              ----------                              


                        TUESDAY, MARCH 23, 1999

                  House of Representatives,
                            Committee on Resources,
                 Subcommittee on Forests and Forest Health,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2 p.m., in Room 
1334, Longworth House Office Building, Hon. Helen Chenoweth 
[Chairman of the Subcommittee] presiding.
    Mrs. Chenoweth. The Subcommittee on Forests and Forest 
Health will come to order, please.
    The Committee is meeting today to hear testimony on the 
Federal Forests Emergency Act of 1999. Under Rule 4(g) of the 
Committee Rules, any oral opening statements at hearings are 
limited to the Chairman and the Ranking Minority Member.
    This will allow us to keep our witnesses on schedule and 
allow us to hear from them sooner, and help Members also keep 
on their schedules.
    Therefore, if other Members have statements, they can be 
included in the hearing record under unanimous consent.

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. The purpose of this hearing is to discuss 
the general need for expediting management activities on 
Federal forests in cases of environmental emergencies. 
Catastrophic events such as windstorms and wildfires or severe 
insect and disease epidemics often require the swift 
implementation of management activities to avert further 
environmental degradation.
    Unfortunately, however, legal and regulatory requirements 
or bureaucratic red tape often prevent those activities from 
taking place in a timely manner or even at all. Provisions 
exist in law, but are rarely used, that allow for expedited 
processes to occur--in particular, alternative arrangements 
under NEPA.
    Last year, immediately following a severe windstorm, the 
National Forests in Texas applied for and received permission 
from the Administration to use alternative arrangements for the 
removal of blown down trees in order to reduce the impacts of 
future insect infestations and wildfires. The purpose of this 
hearing is also to discuss draft legislation requiring other 
forests that have suffered catastrophic events to be considered 
for alternative arrangements.
    My draft legislation lists a number of forests that have 
experienced catastrophic events of a similar magnitude as the 
East Texas blowdown, recommending that they also be granted 
expedited processes under NEPA. On the Idaho Panhandle National 
Forest, for example, 150,000 acres are experiencing a 
disastrous outbreak of the Douglas fir bark beetle. To contain 
this infestation on Federal lands before it spreads to state 
and private forests, and to prevent future catastrophic fires, 
the Forest Service must expedite its actions. Not to do so 
would be an irresponsible and unacceptable breach of the pubic 
trust.
    Although the CEQ has granted alternative arrangements only 
30 times since 1980, many of these were in response to 
situations of similar or even lower severity than the ones 
listed in my draft legislation.
    For example, one alternative arrangement was given for the 
BLM and Forest Service to implement erosion control efforts 
after the Eighth Street Fire in the hills above Boise, Idaho. 
Another alternative arrangement was for the aerial spraying of 
pesticides in Idaho to combat migratory grasshoppers. We know 
and agree that these were legitimate circumstances for using 
expedited NEPA processes.
    We also know that forest conditions in specific areas--and 
right now I am going to ask counsel to hold up a map showing 
the severity of forest conditions across the Nation. The red 
dots will show you the areas that are affected with damaged 
forests either through fire, windstorm blowdown, disease, or 
insect infestation. And you see the biggest blob up there in 
the Northwest.
    The big, red blob covers most of the northern portion of my 
state and most of my congressional district. It also extends 
over into Montana. It has been characterized in previous 
testimony as ``forests that are in near collapse.'' I have 
never heard that kind of testimony given in this Committee 
since I have been in Congress, nor have I read about it. And 
these are the Forest Service's own maps, and they are a blowup 
of satellite maps that detect from imagery the heat of the 
forest. So, you can see we have areas, vast areas, in this 
Nation that are truly in a state of near collapse. Thank you 
very much.
    We also know that forest conditions in specific areas 
across the country are in need of accelerated management as the 
red dots clear across the country on this map indicate, and in 
order to prevent costly and preventable environmental and 
economic catastrophes, we must do something now. In some areas, 
this may mean the removal of dead or dying trees.
    Unfortunately, it has become politically incorrect to 
harvest trees on Federal lands for any reason, even when it is 
scientifically the most appropriate means for protecting 
wildlife habitat, soils, watershed stability, and private 
property. Hopefully, we can get beyond the political aspects of 
this issue and have a serious dialogue on the merits of using 
expedited processes in critical forest areas.
    [The prepared statement of Mrs. Chenoweth follows:]

 Statement of Hon. Helen Chenoweth, a Representative in Congress from 
                           the State of Idaho

    The purpose of this hearing is to discuss the general need 
for expediting management activities on Federal forests in 
cases of environmental emergencies. Catastrophic events such as 
windstorms and wildfires or severe insect and disease epidemics 
often require the swift implementation of management activities 
to avert further environmental degradation. Unfortunately, 
however, legal and regulatory requirements or bureaucratic red-
tape often prevent those activities from taking place in a 
timely manner or even at all. Provisions exist in law, but are 
rarely used, that allow for expedited processes to occur--in 
particular, ``alternative arrangements'' under NEPA. Last year, 
immediately following a severe windstorm, the national forests 
in Texas applied for and received permission from the 
Administration to use ``alternative arrangements'' for the 
removal of blown down trees in order to reduce the impacts of 
future insect infestations and wildfires. The purpose of this 
hearing is also to discuss draft legislation requiring other 
forests that have suffered catastrophic events to be considered 
for ``alternative arrangements.''
    My draft legislation lists a number of forests that have 
experienced catastrophic events of a similar magnitude as the 
East Texas blowdown, recommending that they also be granted 
expedited processes under NEPA. On the Idaho Panhandle National 
Forests, for example, 150,000 acres are experiencing a 
disastrous outbreak of the Douglas-fir bark beetle. To contain 
this infestation on Federal lands before it spreads to State 
and private forests--and to prevent future catastrophic fires--
the Forest Service must expedite its actions. Not to do so 
would be an irresponsible and unacceptable breach of the public 
trust.
    Although the CEQ has granted alternative arrangements only 
30 times since 1980, many of these were in response to 
situations of similar or even lower severity than the ones 
listed in my draft legislation. For example, one alternative 
arrangement was given for the BLM and Forest Service to 
implement erosion control efforts after the Eighth Street Fire 
in the hills above Boise. Another alternative arrangement was 
for the aerial spraying of pesticides in Idaho to combat 
migratory grasshoppers. We know and agree that these were 
legitimate circumstances for using expedited NEPA processes.
    We also know that forest conditions in specific areas 
across the country are in need of accelerated management in 
order to prevent costly and preventable environmental and 
economic catastrophes. In some areas this may mean the removal 
of dead or dying trees. Unfortunately, it has become 
politically incorrect to harvest trees on Federal lands--for 
any reason--even when it is scientifically the most appropriate 
means for protecting wildlife habitat, soils, and private 
property. Hopefully, we can get beyond the political aspects of 
this issue and have a serious dialogue on the merits of using 
expedited processes in critical forest areas.

    Mrs. Chenoweth. As soon as the Ranking Minority Member 
comes in, I would be happy to recognize him for his statement, 
but I would, at this time, like to welcome my colleague, Mr. 
Bob Aderholt, from Alabama, who is joining us today.
    Mr. Aderholt, do you have a statement that you would like 
to make at this time?

STATEMENT OF HON. ROBERT ADERHOLT, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ALABAMA

    Mr. Aderholt. Yes. Thank you, Chairman Chenoweth, I 
certainly am glad to be here today. I wanted to take the 
opportunity to introduce the Chairman of the Winston County 
Commission, Roger Hayes, who is with us today. He is a long-
time friend of my family, and he and his family have resided in 
Winston County for generations, knows the area quite well, 
elected in 1992 to the Commission, re-elected in 1996.
    A significant portion of Winston County, approximately 35 
percent, is within the boundaries of Bankhead National Forest. 
The National Forest was named after William Bankhead, who 
represented the county and the district that I now represent 
back in the 1920s and 1930s, and also served as Speaker of the 
House during the second term of Franklin Roosevelt.
    As Chairman Hayes will discuss in his testimony, the 
Bankhead National Forest is a vital component of the local 
economy in Winston County and the surrounding area. Timber 
harvesting and recreation has served as mainstays for years, 
but both are being seriously threatened by the actions largely 
taking place far away from Bankhead National Forest.
    Chairman Hayes will be able to spell out in greater detail 
the impact on Winston County and the surrounding counties, and 
the legislation your Subcommittee is considering presents a 
modest, balanced approach to this problem, and I am hopeful 
that a bipartisan consensus can be forged as we move along in 
this process today.
    Thank you very much.
    Mrs. Chenoweth. Thank you, Mr. Aderholt. The Chair does 
recognize Mr. Adam Smith, if he has an opening statement.
    Mr. Smith. I have no opening statement. Actually, I will 
wait for the witnesses and ask questions at that time.
    Mrs. Chenoweth. Thank you, Mr. Smith.
    Now, it is my privilege to invite to the witness table Mr. 
Roger Hayes, properly introduced by Congressman Aderholt. And 
joining him will be my witness from Boise, Idaho, the Director 
of the Idaho State Department of Land, a gentleman I am very, 
very proud to work with, Mr. Stanley Hamilton. I would also 
like to introduce Mr. Jack Phelps, who is the Executive 
Director of the Alaska Forests Association in Ketchikan, 
Alaska, who I am equally pleased can be with us today. This is 
a fine and distinguished group of witnesses.
    Before you begin your testimony, I wonder if you might 
stand and raise your hand to the square.[Witnesses sworn.]
    We will open our testimony with Mr. Hamilton.

STATEMENT OF STANLEY HAMILTON, DIRECTOR, IDAHO STATE DEPARTMENT 
                     OF LAND, BOISE, IDAHO

    Mr. Hamilton. Madam Chairman and Members of the Committee, 
good afternoon. My name is Stan Hamilton. I am the Director of 
the Idaho Department of Lands, and in this capacity I also 
serve as the Idaho State Forester. I am a Past President of the 
National Association of State Foresters, and currently serve 
that organization as Chair of the Forest Health Committee.
    A little bit of background about the Idaho Department of 
Lands is in order. We are responsible for the management, 
protection, control and disposition of about 2.5 million acres 
of endowment trust land and associated resources. We have about 
750,000 acres of commercial timberland, and also a very viable 
and thriving cooperative forestry program in which we help 
small, industrial, private landowners deal with forestry issues 
on their lands.
    Idaho is blessed with some of the most productive forests 
in the Nation. We now support about 170 primary wood processing 
plants, and of course provide habitat for game/nongame 
wildlife, clean water for fish, recreational opportunities, and 
scenic qualities for which Idaho is famous.
    We have nearly 22 million acres of forest land, of which 74 
percent is managed by the National Forest, 10 percent by the 
State of Idaho, the Bureau of Land Management and the Bureau of 
Indian Affairs, 11 percent by nonindustrial private landowners, 
and about 5 percent by industrial private landowners.
    We have a new bug problem, one that began about three years 
ago in 1996, after a very large, major ice storm which struck 
the Idaho Panhandle. It is shown on both of these maps here 
before you. This map perhaps shows it the best. It basically 
attacked the Kootenai County area around Coeur d'Alene, Idaho, 
but the problem has very quickly moved off of private lands and 
onto the Federal forest lands. There is a map with my testimony 
which shows the results of the current situation that we have.
    Currently, entomologists call this the most severe Douglas-
fir beetle infestation in northern Idaho since the 1950s. We 
believe that the Forest Service must consider immediate action 
to reduce the potential risk of high intensity wildfire and 
bark beetle infestation onto adjacent private lands. In this 
situation, a need exists to consider alternative arrangements 
for compliance with the National Environmental Policy Act, or 
NEPA.
    The bill that you have under consideration, the Federal 
Forest Emergency Act of 1999, will authorize the Council on 
Environmental Quality to expedite the NEPA process during 
emergency insect and disease infestation situations.
    As I indicated, climatic conditions set the stage for our 
Douglas-fir bark beetle outbreak. An ice storm in November 
1996, followed by near record snowfall during the winter of 
1996-97, caused extensive damage to the forests of northern 
Idaho. Thousands of damaged and downed trees provided ideal 
conditions for various bark beetles, including the Douglas-fir 
beetle, to breed and build up populations.
    An unusually hot, dry summer in 1998 only contributed to an 
inevitable outbreak. Under these conditions, Douglas-fir beetle 
populations exploded from normal, endemic levels to epidemic 
levels.
    Our attention now focuses on the Douglas-fir beetle. 
However, the same climatic conditions also damaged or downed 
other conifer species as well. As a result, we have seen 
increases in various bark beetles that attack these species. In 
particular, the pine engraver beetle is attacking ponderosa and 
lodgepole pine. This map shows the area of infestation.
    I think that the ponderosa pine beetle, the attacks on 
ponderosa pine, showed up first in the areas on the map that 
are shown in purple or lavender. These areas are actually as 
significant as the Douglas-fir beetle. Most of them, however, 
occurred on private lands and have been dealt with very 
quickly.
    Could anything have been done to prevent this insect 
outbreak? Yes. Prompt salvage and clean-up of downed and 
damaged trees would have eliminated the food source for bark 
beetles. It may not have totally prevented an outbreak, but it 
would have greatly reduced the magnitude of what we are now 
experiencing.
    Many nonindustrial private landowners responded quickly in 
cleaning up following the winter storms. Extensive educational 
efforts encouraged landowners to protect undamaged trees by 
removing the down material that provides the breeding site for 
bark beetles. In some cases, this was also a necessity in order 
to regain access to rural homesites and restore downed 
electrical power. We had roads closed and power out everywhere, 
and in many cases the only way to get anywhere was to saw their 
way out.
    As a response to the need to clean up stands, the private 
timber harvest in Kootenai County, the area surrounding Coeur 
d'Alene that sustained the heaviest ice storm damage, jumped 
from 51 million board feet in 1996 to 85 million board feet in 
1997.
    Certainly not every one of those landowners intended to 
harvest timber that year, but they needed to do so in order to 
deal with the beetles. Industrial private lands and state lands 
were harvested because we have an obligation, we feel, to 
salvage, and we do so whenever it is economically feasible.
    The National Forests, particularly the Idaho Panhandle 
National Forest, sustained heavy damage also. Aerial surveys 
conducted that summer and the Fall of 1998 detected an epidemic 
level of Douglas-fir bark beetle activity. Moreover, field 
surveys indicated that for every attacked tree detected from 
the air, there was an average of about eight additional trees 
that had been attacked but were not yet visible. In other 
words, the trees were gone but did not know it yet.
    In mid-January 1999, the Forest Service released a Douglas-
fir Beetle Project Draft Environmental Impact Statement that 
addressed the situation on the Idaho Panhandle and Colville 
National Forests.
    I applaud the Forest Service for putting together a 
document of this magnitude, about 900 pages, in such a short 
period.
    I am also pleased to let you know about the extensive 
cooperation between the Forest Service and the Department of 
Lands in dealing with this situation. We have co-hosted 
meetings with some 500 people--one of those meetings had about 
300 people at it. All of the meetings went very well, with a 
good exchange of information. The Idaho State Land Board, 
consisting of the Governor and four other statewide elected 
officials, asked to be briefed on this problem after the 
meeting.
    The Draft Environmental Impact Statement estimates 150,000 
acres of timber under attack by the Douglas-fir beetle with a 
potential of growing up to about 250,000 acres.
    The Forest Service wants to do restoration treatment on 
about 25,000 acres. Revenues from the estimated 150 million 
board feet will help fund watershed resoration projects such as 
road closure and obliteration and improve substandard roads 
that pose a risk to water quality.
    Since only a fraction of the total acres of bark beetle 
attack will receive some degree of treatment, projects are 
proposed primarily in areas where national forest lands lie in 
proximity of private lands. This map over here shows that 
frontage. The real problem that we have here is that many of 
the private landowners along the boundary have already cleaned 
up their lands as far as the beetle are concerned, and now they 
face a situation where the beetle is coming back off the 
Federal lands onto their private lands. Needless to say, they 
are concerned.
    We expect in some of those areas that we will have some 
potential wildfire problems and, as the agency that deals with 
wildfire suppression, we want to make sure that we have as 
little a problem on the state and private lands as we can.
    In conclusion, just a year ago, the CEQ granted alternative 
arrangements for NEPA requirements for a similar situation in 
Texas. As a result, downed and damaged timber was salvaged 
before it lost value, the threat of high intensity wildfires 
was reduced, and a potential bark beetle infestation was 
averted. This was the first time ever for the CEQ to grant 
alternative arrangements for the removal of timber.
    The big difference between the Texas and Idaho situations 
is that in Idaho the bark beetle outbreak has already killed 
trees on 125,000 acres. We think that the Forest Service needs 
to take quick action to reduce the spread of these insects and, 
most importantly, reduce the risk of catastrophic wildfires.
    Your bill, Madam Chairman, will go far towards allowing the 
Forest Service to proceed rapidly in the current situation and 
provide timely action. Thank you.
    [The prepared statement of Mr. Hamilton may be found at the 
end of the hearing.]
    Mrs. Chenoweth. Thank you, Mr. Hamilton, and I notice that 
you greatly summarized your testimony.
    Under unanimous consent, your full testimony will appear in 
the record. Thank you. And I want to remind the witnesses about 
our lights up here. They are sort of like traffic lights. 
Green, proceed; and like in traffic lights, when the yellow 
light goes on, step on the gas, and when the red light hits 
you, it means stop.
    So, with that, I am very pleased to call on Mr. Phelps, 
from Alaska.

STATEMENT OF JACK E. PHELPS, EXECUTIVE DIRECTOR, ALASKA FORESTS 
                 ASSOCIATION, KETCHIKAN, ALASKA

    Mr. Phelps. Thank you, Madam Chairman and Members of the 
Committee, for the opportunity to address you today. My name is 
Jack Phelps, and I am the Executive Director of the Alaska 
Forest Association, which is the statewide forest products 
industry trade association for Alaska. We represent about 300 
companies doing business in Alaska. I am also a member of the 
Society of American Foresters.
    The mission of the Alaska Forest Association is to advance 
the restoration, promotion and maintenance of a healthy, viable 
forest products industry, contributing to economic and 
ecological health in Alaska's forests and communities.
    Alaska contains about 248 million acres of Federal land, 
including the two largest forests in the 191 million-acre 
National Forest System, The Tongass at 17 million acres, and 
the Chugach at 5.5 million acres, or a little bit more than 
that.
    Because of the high amount of annual rainfall in southeast 
Alaska, fire is not a major problem in the Tongass National 
Forest as it is in many national forests. On the contrary, the 
problem is windthrow. Windthrow events of up to several hundred 
acres are not uncommon, and if the event occurs in areas 
designated for timber management, the Forest Service commonly 
includes salvage opportunities in its timber sale program. 
However, as you, I am sure, are well aware, the majority of the 
Tongass is not in areas managed for timber management, 
therefore, large areas of windthrow go untended.
    From a forest health and diversity standpoint, we have a 
forest health problem in the Tongass that is yet being 
investigated, and has to do with about 279,000 acres that are 
affected by yellow-cedar decline. This is an ongoing problem 
and one that seems to be accelerating, and one that we, 
together with the Forest Sciences Laboratory at Madison, 
Wisconsin and the University of Oregon are investigating. But 
we do have, in the Chugach and areas of southcentral Alaska, 
what genuinely is a forest health crisis.
    This is the unprecedented epidemic of spruce bark beetle 
infestation in the Kenai Peninsula, the Anchorage and 
Matanuska-Susitna areas and up into the Copper River Valley. 
This epidemic has resulted in heavy mortality of white, Sitka 
and Lutz spruce on more than 3 million acres.
    I have a copy that I will leave with your staff, of a very 
recent forest health report from Alaska, and on this page--you 
probably cannot see it very well from there--but it shows a 
stand of trees near the tip of the Kenai Peninsula with 100-
percent mortality.
    Throughout the Kenai, the mortality rates tend to be in 
excess of 85 percent on the white spruce stands and, as I said 
earlier, bleeding over into the Lutz and Sitka spruce along the 
eastern coast of that peninsula.
    Impacts of this epidemic include the loss of the 
merchantable value of trees, the loss of wildlife and fish 
habitat, the loss of scenic qualities, and the prospect of 
long-term stand conversion and fire hazards. The stand 
conversion problem is exacerbated on the Kenai by the 
prevalence of invasive grasses which will impede, and in many 
cases prevent, natural reforestation.
    Forestry responses to the heavy mortality have been mixed. 
The Alaska Native corporation landowners have been harvesting 
their trees, salvaging value and creating economic activity in 
both the western Kenai and in the Copper River area.
    The state, though initially slow to act, has been 
aggressive in recent years in selling dead and dying timber 
from beetle-infested stands. Nearly 1.5 million seedlings have 
been planted on state lands in the past five years, all paid 
for by the timber sale program which harvested primarily 
beetle-killed and beetle-damaged trees. This was on state land. 
This mechanical reforestation will ensure that the harvested 
state lands will in the future host a healthy spruce forest 
once again, a situation that would be unlikely had the state 
chosen to leave the dead trees untended.
    Federal land managers, on the other hand, have been 
paralyzed, and have taken virtually no action to address the 
massive loss of spruce forests either on the Kenai or in the 
Copper River area.
    In 1996, under the provisions of the salvage law passed by 
Congress in 1995, the Forest Service prepared NEPA documents 
for the salvage of 116.6 million board feet of timber on 18,500 
acres. The cost of the NEPA documentation ran to $7 million. 
The sales were challenged in court, and after spending 
approximately $35,000 in litigation, the Forest Service simply 
decided to drop the salvage program. That it did this at a time 
when a very high timber market was developing makes the 
decision all the more indefensible.
    The agency thus chose to throw away the taxpayers' money 
already spent on NEPA and to forego activities that would have 
been beneficial both to the local economy and to the forest. 
Had the Federal agency followed the lead of the State of 
Alaska, the Chugach National Forest could have used the salvage 
sale program to ensure the reforestation of such ecologically 
important and tourism sensitive areas as Kenai Lake and Moose 
Pass.
    I do want to point out that not all of the, or even the 
majority of, beetle-damaged Federal lands in southcentral 
Alaska are under the control of the Forest Service. Much of 
that heavily infested land in the Copper River area is 
controlled by the National Park Service. About one-third of the 
beetle-affected lands on the Kenai are under Federal ownership. 
The largest part of that is the 1.9 million acre Kenai National 
Wildlife Refuge, managed by the Fish and Wildlife Service.
    Last year, the Refuge alone suffered active beetle 
infestation on more than 233,000 acres. On the other hand, 
total affected acreage on the Chugach National Forest, 
including both active infestations and mortality from prior 
years, is just over 30,000 acres. Both the Forest Service and 
the United States Fish and Wildlife Service could, and should, 
allow for the harvest of some of this timber to provide for 
mechanical reforestation to replace those spruce forests which 
will all be dead within a matter of a few years.
    I simply think that the legislation that you have proposed 
makes good sense. Rapid action on the part of the landowner to 
harvest these beetle-damaged trees is very important because 
our spruce loses value for sawlogs after about three years. It 
loses value even for chips after about seven years. The actions 
the state has taken came late in the game, in time to get most 
of the value out of a lot of these stands, but they are 
losing--they are down to many stands which will not provide the 
value that would provide for reforestation.
    I encourage you to include in your proposed legislation a 
section that identifies the 30,000 acres on the Chugach 
National Forest that could also be addressed in the same manner 
as other sections in your bill.
    I think that also--one final, parting shot here--please do 
not let the Forest Service eliminate the timber salvage fund or 
the KV Fund, which I understand has been considered by the 
Chief, and which would further impede the kind of efforts that 
you are attempting to make with this piece of legislation. With 
that, I conclude my comments and will be available for 
questions.
    [The prepared statement of Mr. Phelps may be found at the 
end of the hearing.]
    Mrs. Chenoweth. Thank you very much, Mr. Phelps.
    The Chair now recognizes Mr. Hayes for your testimony.

STATEMENT OF ROGER HAYES, CHAIRMAN, WINSTON COUNTY COMMISSION, 
                    DOUBLE SPRINGS, ALABAMA

    Mr. Hayes. Good afternoon, Madam Chairman, Members of the 
Subcommittee. I would like to thank you for this opportunity to 
express my concerns of negative impact that natural disasters 
are having on my county.
    In 1998, a severe ice storm struck Winston County, causing 
major damage to timber located within the county.
    Winston is a rural county located in northwest Alabama, 
population of approximately 23,000. Located within the 
boundaries is 89,000 acres of the 180,000 acre Bankhead 
National Forest. Of this 89,000 acres, 51,710 acres are not 
accessible or have limited access for timber harvesting due to 
the Wild and Scenic River Act, the Wilderness Area, Semi-
primitive Area, and Native American Values.
    Winston County has 50-57 industries that incorporate some 
form of use of the timber. Timber harvested from property in 
the county is usually pulp wood grade, whereas the National 
Forest timber is usually a high grade of saw timber. However, 
when timber is damaged and not harvested within an appropriate 
time, it detracts from the appearance and use of the forest and 
limits the benefits to the county.
    When natural disasters strike, such as fires, tornadoes, 
ice storms, insects and disease epidemics, timber harvesting 
must be expedited in order to prevent further damage. In the 
period of 1993 to 1998, there were six to eight natural 
disasters within the Bankhead National Forest.
    In order to harvest damaged timber, there can be as much as 
a 200-day delay due to environmental assessments. Within this 
time period, insects and disease will cause further 
deterioration of usable timber.
    Revenues are continuing to decrease due to delays in 
harvesting damaged timber, logging being prohibited in a wider 
area next to stream beds, management research with fish and 
wildlife and intense study of endangered species such as fresh 
mussel, flat musk turtle and bats. Endangered species must and 
can be protected without allowing valuable timber to rot and 
decay. All contributing factors must be assessed in a timely 
fashion to allow for the most beneficial outcome.
    Our county receives 25 percent of the proceeds from timber 
harvesting and recreation in the National Forest. Of this 25 
percent, 4 percent is from recreation and 96 percent is from 
timber harvesting.
    Revenues from the National Forest are divided, 50 percent 
for education and 50 percent for roads and bridges. The road 
and bridge portion is spent on road repairs, resurfacing, 
preparing site access for new industries and developing plots 
for wildlife. Also, the Forest Service receives money to keep 
up their roads, their parks that they work. Also, they have 
game plots for the wildlife.
    In your package, you can see from 1986 to 1997, you have 
figures there showing what was brought in each year, and half 
of that goes to roads and half to the bridges, and that is an 
average of $168,559, and this year it is down to $68,000. That 
is $34,000 to roads and $34,000 to bridges.
    Not only does managed timber harvesting offer financial 
assistance to the county, it also serves to protect our forest 
from disease and erosion. It helps to keep the forest well 
manicured and in the most suitable condition for recreational 
use. Even though some people only see our national forest as 
places of recreation, which is important to our county, 
recreation can never replace the timber industry.
    Timber harvesting and recreation in our national forests 
play an important role in the lives of the people of Winston 
County. I have been a life-long resident of the county. As a 
child and a young man, I spent many hours in the forest, mostly 
for recreational purposes. When I finished high school, I was 
17, I could not get a job anywhere else, so I worked there at 
the sawmill. And you folks that know about that, it did not 
take me long to figure out I did not want to do that for the 
rest of my life. My dad had five log trucks. My granddad and 
great-granddad lived in the forest.
    There is a church over there, it still stands, where my dad 
went to school. I have a lot of relatives buried there. I have 
classmates that live in this area. There's two main roads that 
come to and from, and there are two communities over there, 
Moreland and Grayson, and I will give you some further 
information on that. So, what I want you to know is I do have 
family ties, I do have interest, history interest and 
background in this forest. However, as an adult, I see the 
important role the forest plays in our economy. As a private 
citizen, I observe the impact forest timber has on the lives of 
family and friends who have been involved in the timber 
industry for generations.
    As Chairman of the County Commission, I must continually 
travel through the forest to observe road conditions. This 
gives me ample opportunity to observe the condition of our 
forest and determine the impact it will have on our county. The 
residents of our county believe the National Forest should be a 
benefit to the people of the county. It is a great place for 
recreational purposes, but its resources must be managed to 
reach the highest potential.
    I believe that alternative arrangements for the harvesting 
of damaged timber must be enacted in order to preserve our 
forest and the opportunities it presents.
    I have talked to other counties. I am an Officer for the 
County Commission of the State of Alabama. I have talked to 
other commissioners that are in our county. There is politics 
on both sides, both parties were all in agreement.
    Something has got to be done. We have all tried to do 
something about this in the past, and the people before us 
have, so we wish that you would consider doing something about 
that because it is not getting any better, it is getting worse 
on that, and our people sacrificed a lot for this forest, and 
we would just like to make it up to them.
    Thank you for this opportunity.
    [The prepared statement of Mr. Hayes may be found at the 
end of the hearing.]
    Mrs. Chenoweth. Mr. Hayes, I want to thank you for your 
testimony, and I want to thank all three of the witnesses for 
making the effort to come so far to be here to offer your 
testimony.
    Without objection, I would like to ask unanimous consent to 
have Mr. Phelps' report be made a part of the record, if it has 
not been a part of your testimony.
    [The information may be found at the end of the hearing.
    Mrs. Chenoweth. With that, we will now open this section up 
for questions from the Members, and we will begin with Mr. 
Aderholt.
    Mr. Aderholt. Thank you, Chairman Chenoweth. I have just 
got a few questions I want to direct toward Chairman Hayes, and 
some of these things I think you may have alluded to in your 
initial testimony, but just recap maybe exactly how would a 
decrease in the forest revenues affect the county as a whole.
    Mr. Hayes. The county and the Forest Service have a co-op 
agreement to maintain roads in the forest, and with this 
agreement, if we do not have this money, we cannot maintain the 
roads that it takes that go in and out of the forest.
    We have got to amend this law. We have got to have some 
type of balance on this, and this money that comes in from the 
timber sales is part of our budget, and it gives the people of 
our county some type of service. And, also, again, the Forest 
Service depends on this for game plots for wildlife and roads, 
and they keep up their parks that they already have in the 
Bankhead Forest.
    Mr. Aderholt. As far as economic development, what role 
does the National Forest Service play in that regard?
    Mr. Hayes. A study was done by Governor Guy Hunt in 1989 
and 1990 of the counties in the State of Alabama that have 
national forests, and in our area tourism was the number one 
priority, and they said that would be the best way to improve 
our forests on this. We would have two new recreation areas, 
and we have two that have been upgraded. These facilities 
attract tourists that come into our county. They spend money, 
and that helps other businesses that make money off of them 
also.
    In our packet, you have two pictures, and this is one of 
the main roads. And of these two roads that go through the 
forest, if we cannot keep those things up and keep them in good 
working order for these manufacturers, we have got to have some 
way to deliver the supplies to this manufacturer. Also, there 
is a $3-$4 million timber mill that is in that area. It has got 
to have some way to have the people come in and out to it. We 
also have approximately 125 miles of trail, and tourists do not 
want to come in there--if they cannot get to the camp sites and 
they cannot get to the trails, they are not going to come into 
our area, and we have got to have every advantage that we can.
    Mr. Aderholt. I think that really was my next question, 
talking about how timber harvesting is compatible with tourism 
and roadways and wildlife, and I think you have addressed that 
as far as the access in and out of the Bankhead Forest because 
of the major road that runs through there, which the photos are 
an example of that. What about as regard to wildlife?
    Mr. Hayes. Well, this helps maintain, the money that the 
Forest Service gets, helps maintain the food plots that are 
planted for the wildlife. And when you have trees down and when 
you have beetle-infested, if you do not get them up, when a 
forest fire comes in all the beetle spread. It is a lot easier 
to control the loggers that come in than it is to control a 
fire and the beetles. And when you are looking at these folks 
that log in there, you are looking at the possibility not of 
huge companies coming in and just wiping everything out and 
tearing up more than they are getting out, you are looking at 
mom-and-pop operations. These folks have been in Winston County 
for years. You are talking about single-axle, ton-and-a-half 
trucks and not 18-wheelers. So, with that and with both of 
them, we think that this would be sufficient.
    Mr. Aderholt. Lastly, what effect does timber harvesting 
have on endangered species?
    Mr. Hayes. Again, if we do not manage our forests in a more 
productive manner, there will be no habitat for endangered 
species because it has been destroyed by rotting or decaying or 
infested by insects, pine beetles and so forth. Again, I have 
just completed 18 loads of logs where my home is from this ice 
storm. Since I have been--and I have lived on both sides of the 
county--we have had three ice storms since 1970, not counting 
tornadoes. They have logged out 18 loads of logs, and I live on 
seven and a half acres and I have about six acres of wood. The 
reason I had to, because so much damage, because I did not want 
to come back here in the summer and let the beetles--because I 
did not cut any tree that I did not have to on this.
    Again, we have families in--and I am summing up--we have 
families in the National Forest that is on--not on this road on 
your map or the pictures that you have here, but another road--
we do not just have 89,000 acres, we have people in communities 
that live in there. We are trying to get water to these folks 
now, and we are just trying to speed up--I can be working on 
water projects right now, but I appreciate the fact that you 
all let me come and testify. And, Robert, I want to thank you 
for your interest and your concern and helping us in this 
matter. And I think we need to put common sense back in it, and 
common sense has got to prevail in this matter.
    Mr. Aderholt. Thank you. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Aderholt.
    The Chair will recognize Mr. Smith.
    Mr. Smith. Thank you, Madam Chair. I certainly recognize 
the benefits of timber harvesting public lands, and you have 
mentioned just a few of them. The counties are dependent upon 
the money, and I concur with most of the analyses of the 
benefits of that.
    The question I have is the NEPA process itself, does it 
have any legitimacy? Do you support it in general? Do you think 
that that plan that has been developed for managing and 
regulating and considering environmental concerns has any 
legitimacy--putting aside for the moment the issue of 
emergencies--do you think that process in and of itself works? 
I understand the benefits of timber harvesting and all that 
goes into it, but that is not what we are talking about in this 
bill. We are talking about whether or not that, as regulated by 
NEPA, can still function. So, that gets right to the heart of 
does NEPA work, forgetting about emergencies for the moment.
    Mr. Phelps. Was the question addressed to all of us, sir?
    Mr. Smith. I do not know, whichever one of you wants to 
step up. I think you were all equally convincing in your 
opening argument, so whichever one of you wants to answer it is 
fine.
    Mr. Phelps. I will take a shot at it, sir. I think the 
answer is complex. NEPA certainly serves an important function 
in that it requires that a process be followed by the agency 
that allows for public input and for broad agency input.
    The problem with NEPA is that it is an open process that 
never--it very often is very difficult to bring it to finality 
and bring it to conclusion.
    I mentioned in my comments, for instance, the extreme cost 
of putting together NEPA documents for a harvest that 
ultimately then did not take place. And we may believe in 
public process, sometimes public process can take too long to 
allow the agency to respond quickly when it needs to. And, as I 
mentioned, if you are going to get the full value out of some 
of these trees to pay for the reforestation effort, you cannot 
allow it to drag out for two or three years, which it easily 
could do.
    Mr. Smith. So, the threshold question, you think, 
independent of the emergency situation we are talking about 
here today, you think NEPA itself needs serious reform?
    Mr. Phelps. I really do. In fact, I testified before this 
very Committee a couple of years ago to that effect.
    Mr. Smith. I just wanted to get that out. The second 
question I have is, when does a problem become an emergency, 
basically, because there is no question there are consistently 
problems in the public forests. I mean, you can fairly clearly 
define a problem, and there is no question that a problem is a 
problem, but is it an emergency, and how would you draw the 
line between those two things because, theoretically, that is 
the purpose here. You are not supposed to go outside of 
existing laws just because there is a problem. There is always 
problems. When does it cross over the line and become an 
emergency, and what are some of the factors that you would 
think would be most important in that? Mr. Hamilton, you have 
not had a chance to answer a question yet.
    Mr. Hamilton. Mr. Chairman, I do not know whether there is 
any right answer to that. I mean, you cannot always----
    Mr. Smith. It is important to get to the crux of the 
matter, though.
    Mr. Hamilton. I think it becomes an emergency when the 
people in the community that is around the area feels that it 
has become an item of concern. In this problem in Coeur 
d'Alene, the people in the community recognize that for an 
emergency, for a serious problem, long before the Forest 
Service did and began to deal with it. This is part of the 
problem. There are 900 pages here in this Draft EIS. It spawned 
a 55-page response from a consortium of environmental groups 
who were opposed to the project, most of them from out of the 
area. I do not know whether anybody reads 900 pages worth of 
material like this in order to try to reach a decision.
    Mr. Smith. I am sure it has got a great summary. I am 
sorry.
    Mr. Hamilton. The people that work for me are trained in 
the same schools and they are just as good as the Forest 
Service hires, and we recognized this for a problem and an 
emergency a long time ago. And I think that the Forest Service 
folks did, too, and I think that this became more than an 
analysis to them, it became an impediment to any kind of an 
action.
    Mr. Smith. But, factually, can you help me out with in 
terms of forest--I hear you in terms of local control and so 
forth; on the other hand, I am not sure that the person most 
closely and personally directly affected by a problem is the 
best person to say that that is an emergency because all of my 
problems are emergencies. All of your problems are, well, we 
will see. So, I am worried about that answer. I am looking for 
more like what are the specific how many bugs, how many trees 
down, what is contemplated to cross over into an emergency. Mr. 
Hayes?
    Mr. Hayes. Well, an emergency to us is an emergency when it 
costs us education money, when it costs us road money, when it 
costs people jobs in our county, when we cannot go through our 
roads, when we cannot clean up our roads, where we have places 
where fires are burning and people cannot get in to use our 
recreation. It may be on a small scale, it could be on a large 
scale, to me it is when the local folks----
    Mr. Smith. That kind of says just about everything is an 
emergency then, and that is an argument, but that is kind the 
answer you are giving me.
    Mr. Hayes. Well, when it costs money and people start 
coming at us local folks.
    Mr. Smith. Thank you. Mr. Phelps.
    Mr. Phelps. Thank you. I guess I would suggest at least 
three criteria. One, if the situation--and I will limit these 
comments to the forest situation since that is the subject 
today--when the situation poses a threat to human life, 
significant threat to human life, such as on the Kenai, because 
of the increased fire hazard; when it poses a significant 
threat to private property that needs to be addressed right 
away; and then, thirdly, I would say you have an emergency 
situation when you have a significant threat to the ecological 
well being of that forest or that area of that forest. I would 
say under any one of those three criteria, if the need to act 
quickly is part of the solution, then you have an emergency 
situation.
    Mr. Smith. I am sorry, Madam Chair, is it possible if I 
could go--I did not use my opening statement, I will use a 
little extra time now.
    Mrs. Chenoweth. Certainly.
    Mr. Smith. So, I gather then that it is your opinion that 
the Forest Service just is not getting the job done because the 
current method for doing it basically is for the Forest Service 
to listen to the locals. I mean, they have their criteria laid 
out here similar to the criteria you just mentioned, as a 
matter of fact, to evaluate and decide whether or not to ask 
for the emergency, so in overriding the Forest Service, the 
presumption has to be here that you feel the Forest Service is 
not adequately doing the job. Is that a correct assumption and, 
if so, spin that out for me, why?
    Mr. Hamilton. I guess, Madam Chairman, I would take a shot 
at that. First of all, I think that the Forest Service is doing 
a fairly reasonable job on the Panhandle. They recognized the 
problem early on. I do not believe that they have responded as 
quickly as they should have, but a lot of that has to do with 
the process that they go through.
    I spent 18 months with a group of folks from our state, 
going around the state talking to Forest Service people, 
talking to BLM people, about forest management. And one of the 
things that became very clear in that 18-month discussion was 
that the Forest Service folks go to the same schools as 
everybody else. They want to do the same kind of good job that 
everybody else does. But they have a set of laws and a set of 
regulations and so forth which are sometimes mutually exclusive 
and take them in different directions. And it is very, very 
difficult to arrive at any kind of a decision when you have 
conflicting----
    Mr. Smith. I am sorry to interrupt, but the point is, they 
could declare an emergency, that is what I am talking about. 
They have that process which they would bypass the laws in the 
same manner that this bill is asking CEQ to bypass those laws. 
So, the process is there, but what I am asking is if the 
process is so cumbersome and it is an emergency and the Forest 
Service has the tool to say it is an emergency, ask the CEQ to 
step in, and they are apparently not doing that.
    Mr. Hamilton. I think, Mr. Chairman, sir, that if the 
Panhandle Forest supervisor had felt that that was an option, 
that he would have undertaken that because I do not think that 
he would have wanted to go through the process as fully as they 
have had to go through it, if he could have found a substitute 
for that action or process.
    Mr. Smith. Mr. Hayes.
    Mr. Hayes. In our county, the Forest Service wants to work 
with us, but they have to go--like the NEPA program. We had a 
water project going to Moreland-Grayson for the grace is they 
had an old permit that went back into the 1950s. We could not 
lay a water line, and we are getting ready to submit an 
application for water to those folks. Those folks have to bring 
in their own drinking water. There are about 170 families. The 
Forest Service, again, the NEPA program is so big, and by the 
time they get through doing all this, it is so time-consuming--
and in our area, the Forest Service wants to work with us, or 
seem to, but they have to go through all this long process to 
get there.
    Mr. Smith. Maybe I need a point of clarification here, but 
as I understand the law, what we are trying to do here is we 
feel like the CEQ needs to get involved more quickly, so we are 
directing the White House to directly say to the CEQ, ``These 
ten areas, we want something done on them.'' I mean, if the 
Forest Service thought that had been done, could they not 
forward that same sort of request directly to the CEQ right now 
and ask for an emergency? I mean, maybe that form is long, but 
it seems to me like it would be pretty quick.
    Mr. Hayes. I was not aware that they could come in and do 
this. My understanding is that it is just so much time involved 
that----
    Mr. Smith. Yes. But, see, the bill that we are working on 
here--yes, that is the problem. There is an emergency process 
out there right now that the Forest Service can directly 
request CEQ. What this bill is saying is that that process is 
not working. We need to specifically direct--we need, in 
essence, to forward that request that the CEQ go over the 
Forest Service's head and direct them to make those requests. 
So, that is what the bill does. The Forest Service is coming up 
next, and we can ask about it, but if the Forest Service is 
doing their job, then we do not have a need for this piece of 
legislation. It is only if they are not that we do.
    The last question I have, and I appreciate the Chair's 
indulgence, is, the CEQ has done like 30 of these over the 
course of 20 years, and the question is, if we get in the habit 
of going at them with an emergency--because once an emergency 
request is made to them, they do have to go through a process, 
and this bill, in fact, directs them to go through a process 
and say yea or nay on the emergency, and give us an 
explanation.
    Is the CEQ equipped to take this many emergency requests 
and deal with that? And the other thing is, if the Forest 
Service is doing their job--and from what you gentlemen say out 
there in the local--I mean, you see to have fairly good 
relations with the Forest Service--the way this is supposed to 
work is it is a local component. The locals get together and 
say, ``Hey, we have got an emergency.'' They go to the Forest 
Service, they then have that local input, they kick it up to 
the CEQ and go from there. We are kind of not only going over 
the head of the Forest Service in doing this, but we are going 
over the head of the locals as well, directly to the CEQ. We, 
in Congress, are making that decision. And I am just wondering 
is the CEQ in a position to field that many requests, and what 
does it do to that local component? Mr. Hayes, and then Mr. 
Phelps.
    Mr. Hayes. Is there a difference in our local Forest 
Service than up in DC? Are they abiding by different laws, or 
they have different procedures that they have to go through?
    Mr. Smith. The local Forest Service versus the DC Forest 
Service? I do not think so, not in this area. I mean, I am sure 
there are differences, but it seems to me like they are 
connected.
    Mr. Hayes. The CEQ process is still such a long--of course, 
what you are asking us, I really do not know the Forest Service 
may, when you are getting into the technical--they may have to 
answer that part there.
    Mr. Smith. Mr. Phelps?
    Mr. Phelps. Yes. It is kind of an interesting question 
because you ask would this legislation be going over the head 
of the Forest Service, but also over the head of the local 
folks, and my perception is that with respect to some of these 
kinds of situations that we are talking about here, there is a 
significant amount of the local public that would like to see 
some action. And in the case, for instance, the one I mentioned 
earlier, where they did all the NEPA work and then dropped the 
thing at the last minute, it was because of the objections of 
some very small special interest groups.
    So, I see this legislation as being the representation, as 
it should be in this country, of our representatives saying the 
people are speaking and they want something done about these 
particular areas, and trying to, as you say, leap-frog over an 
agency that is caught in its own web of gridlock.
    I agree a little bit with what you said about us having, at 
least in our region, a good relation with the Forest Service on 
one level but, on the other hand, we are very frustrated by 
their unwillingness to act in ways that they clearly should 
act, given the mandates that they have to protect the forests 
and maintain them in a healthy condition.
    Mr. Smith. I understand. Just two closing comments. One, we 
are going over the head of the Forest Service to the White 
House. Those are the people we are now giving the power. The 
second thing is, I guess within any local community you have 
your interests and then you have the special interests on the 
other side of it, and that is kind of what we have to do in our 
job, is balance a lot of competing interests and try to come up 
with the right situation. I appreciate you gentlemen's answers, 
they have been very helpful. Thank you.
    Mrs. Chenoweth. I thank the gentleman. I think that Mr. 
Smith's comments were very thoughtful, and I think it provoked 
some good dialogue. In Section 1611, subsection (b), I would 
like to read for the record that it states: ``Nothing in the 
above section shall prohibit the Secretary from salvage or 
sanitation harvesting of timber stands''--and here comes the 
definition--``that are substantially damaged by fire, 
windthrow, or other catastrophe, or which are in imminent 
danger from insect or disease attack. The law specifically 
states the Secretary may either substitute such timber for 
timber that would otherwise be sold under the plan or, if not 
feasible, sell such timber over and above the planned volume.'' 
Now, that language has never been altered, it is still good 
law.
    And so what we are trying to do here with this legislation 
is exactly what Mr. Smith said. We need, apparently----
    Mr. Smith. I am sorry, I want to ask a question about that.
    Mrs. Chenoweth. If you will let me finish my statement--
apparently we do need to go directly to the Secretary and the 
White House because the Forest Service has not moved under the 
authority that Congress has given them, for various reasons. 
And I look forward to hearing their testimony, and I will yield 
to Mr. Smith.
    Mr. Smith. As I read the section you just read, that is not 
the section that says if this is present we can override 
existing laws. That is the section that describes when a 
salvage sale is permittable. It is supposed to be done within 
the context of existing laws. I mean, that is different from 
what we have been talking about today, which is an emergency 
situation where you can override existing NEPA laws. This 
section does not say that you override NEPA in those 
circumstances.
    Mrs. Chenoweth. And that is precisely why we are adding the 
NEPA language. It gives a good, strong definition of what a 
salvage situation would be, which is what you predicated your 
first question on.
    Mr. Smith. Right, a good, strong definition of what a 
salvage situation would be, not a good, strong definition of 
what an emergency situation would be. They are really kind of 
apples and oranges. But, anyway, I have made my point.
    Mrs. Chenoweth. There is another section which does provide 
for emergency, and I would be happy to share that with the 
gentleman. With that, I would like to call on Mr. Don Sherwood.
    Mr. Sherwood. Thank you, Madam Chairman. I think it is 
obvious from the testimony I have been listening to, that if 
salvage situations were always expeditiously handled by the 
Forest Service, we would not need an emergency bill. But from 
what I am hearing from all you folks, we do not necessarily get 
around to do that.
    Someone testified--and I apologize for not being clear--
about the time that we have for sawtimber we have so long, and 
for pulp we have so long--was that you, Mr. Phelps?
    Mr. Phelps. It was.
    Mr. Sherwood. Would you get back into that for me because I 
think that is something we need to know.
    Mr. Phelps. Obviously, it would vary with the situation. It 
might be different with fire, but in the particular case of the 
bark beetle damage in the Kenai Peninsula, you have about three 
years to get decent sawlog value out of it. You have up to 
about seven years to get chip value. And after the eighth year, 
it is not worth much in terms of market value.
    Mr. Sherwood. And my experience in the east would be that 
we have less time than that. When we are talking about quality 
hardwood lumber, it stains--if it is the white woods, it 
stains, and you just do not get the grade that you would if it 
is salvaged very quickly.
    Mr. Phelps. That is absolutely true, sir, and the only 
reason that you have an extended value timeline for this 
particular forest is because of the white spruce long-fiber 
value for newsprint. Quite frankly, a whole lot of it is being 
sold to three major producers of newsprint as chips. It is 
being chipped in a state-of-the-art chip facility at Homer, and 
shipped mostly to Japan. But in most situations, you would not 
have seven years to get value out of it.
    Mr. Sherwood. And when you are talking about emergency or 
not emergency, to me, when you have--and I would like someone 
to agree or disagree--when you have the potential for major 
infestation because the species is living on the down timber, 
that sort of denotes an emergency to me because when we have a 
naturally occurring situation like growth or old growth or a 
decline, maybe that is not an emergency, but when you have 
something like an ice storm or a huge blowdown like we just had 
a tornado in northeastern Pennsylvania that put all this 
hundred-year timber on the ground and it is of very little 
value if you do not get right at it.
    Mr. Hayes, the forest that you are referring to in Winston 
County, what is the general age of that forest?
    Mr. Hayes. The general age, sir, I cannot answer the 
general age of it, I do not really know that, but I know that 
within 200 days--a lot is pine, and it is huge pine, but the 
Forest Service told me that it was prime timber, and I would 
say it is probably close to 40 years old, in that neighborhood.
    Mr. Sherwood. And that is what I wanted to bring out. We 
think so often when we talk about the Western forests and the 
Northern forests, that it takes so long to grow a forest, and 
in your part of the country you get to merchantable sawtimber 
in 40 to 50 years very readily.
    Mr. Hayes. Yes, sir. In 200 days, where he is taking three 
to seven years--200 days and our timber is ruined due to the 
warm weather and the rain and so on and so forth.
    Mr. Sherwood. I wanted that brought out, too, because the 
window of opportunity is much shorter in the south than it is 
in the colder regions, and it is much shorter in the east where 
we are dealing with high quality hardwood. But I also wanted 
you to say--I hoped that you would--about the age of the forest 
because if we merchandize those trees that are down and get 
that cleaned up, we will soon have a new, healthy forest in the 
southeast, it does not take forever, and I think that is good 
management.
    Mr. Hayes. Yes, sir.
    Mr. Sherwood. Thank you very much, gentlemen. This was very 
interesting to me, and I think we are on the right track here.
    Mrs. Chenoweth. The Chair recognizes Mr. Peterson.
    Mr. Peterson. Good afternoon. As I have been listening to 
the discussion here, we have had some discussion about the 
title of this Act, the Emergency Act, but I guess living in the 
heart of the Allegheny National Forest, or living right near it 
in America's finest hardwood right next to Representative 
Sherwood, Pennsylvania has the finest hardwood forests in the 
world, we think--in America, anyway--and being very familiar 
with the forest, it seems like we ought to be trying to prevent 
emergencies because when you are really in a state of an 
emergency with a forest, it is over. What can you do? I mean, 
when the insects have taken over, when you have had an 
extensive blowdown and there is a heavy fuel load on the floor, 
when you have a drought and there is heavy fuel load, you are 
already there, and it is a matter of trying to get it out 
before it burns or the insects move in and destroy even a 
greater area of the forest.
    Is it your view that the NEPA Act, as it currently is 
written, does not give the Forest Service the ability to 
prevent emergencies? I mean, when there is a blowdown, 
immediately it is not an emergency unless the roads are 
blocked. It is not an immediate emergency. But it is going to 
be an emergency if it is not dealt with, whether the insects 
are going to come in or whether it is going to be fire which 
could totally destroy the forest floor, which it has in many 
places in this country. Does NEPA give them flexibility to 
prevent emergencies? That is what I think we ought to be 
talking about. Could we have your viewpoint?
    Mr. Phelps. Mr. Peterson, NEPA is a process piece of 
legislation, it is not a product piece of legislation. So, to 
the degree that the process results in forest plans that 
prevent the Forest Service from actively managing large tracts 
of its land, then I would say, yes, it prevents it. But as was 
really suggested earlier, the real problem here is an agency 
that seems to have completely lost track of its mission. And 
what Congress, I think, needs to do is give the Administration 
the appropriate tools to appropriately manage, but then, bottom 
line, it is going to take some commitment on the part of the 
Administration that happens to be in power at any given time, 
to really take those tools and run with them. And I think that 
is the frustrating thing for you folks, it would be if I were 
in your shoes, you can give them all the tools in the world, 
but the question is, how do you make them use them.
    Mr. Peterson. I am going to be candid here. My perception 
is that some members of the Administration might prevent our 
scientists from doing what they know is right today. Is that a 
fair assumption?
    Mr. Phelps. I see it all the time, sir.
    Mr. Peterson. Whenever we veer from sound science, sooner 
or later we are in deep trouble. And we can have political 
agendas. We can have people developing their own philosophy of 
totally no cut, totally no use. Just look at it but keep people 
out, a set-aside for the critters, whatever, but when we do 
that, it is just a matter of time before we are going to be in 
serious trouble because when you veer away from the sound 
science that we know, and so many people know, we are not going 
to end up with something that we like down the road. Do you 
agree with the concept of the legislation? Do you think this 
will help?
    Mr. Phelps. I do. I think that it is good legislation but, 
again, the problem is, it is very difficult for you folks to 
force people to do what is right. And this legislation would 
give them additional tools.
    Mr. Peterson. But if the problem is above the department to 
begin with, are we hitting our heads on the wall? I guess I am 
concerned with the undue influence of people who do not know 
sound science and do not know the issue, I know that is the 
problem we have dealt with on the A&F, people who do not really 
know and do not care about the science of the issue, but they 
have their own political agendas which are quite lucrative, and 
so they are preventing us from proper management of the 
resource.
    Mr. Hamilton. Mr. Peterson, if I could just comment on 
that, I think this legislation is good legislation. I think it 
is a situation where folks who live on the ground are saying 
``these are areas that are a significant concern to us because 
of the impact it will have on private landowners, on the 
citizens of the community.'' I think for the Congress to tell 
the Administration, CEQ, whoever, these are important to us and 
they need to be looked at, I think it shows the Forest Service 
that there is a route that can be used in order to deal with 
some of these problems and that they should take advantage of 
that opportunity to use it. So, I think the legislation is very 
good.
    Mr. Peterson. Should we change the title to Prevent 
Emergencies, because I think when you get to the emergency 
stage, it is ready to burn down. I just think maybe we ought to 
be trying to prevent, because when you have natural happenings 
that immediately good scientists know what is going to happen, 
but they seem to be unable to adjust their plan because of this 
very complicated process Congress has hung around their neck, 
maybe we ought to be looking at making that whole plan more 
user-friendly.
    Mr. Hamilton. Mr. Chairman, Mr. Peterson, I guess I would 
answer that by saying that I would like nothing better than to 
be able to prevent emergencies. Somehow they continue to keep 
happening. So, maybe if we deal with the emergencies and if the 
Forest Service or anybody else can sort out ways through 
watershed restoration or whatever other process--and there are 
lots of ways to do it--then we may reduce the number of 
emergencies we have. We are always going to have them. Ice 
storms happen overnight. They are a catastrophe, whether it is 
a tornado, whether it is a hurricane, ice storm, the ``Route 
Blowdown'' which was some kind of a mixing of major storms over 
the Continental Divide, we are always going to have those. We 
need to be able to deal with them quickly.
    Mr. Peterson. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Peterson. The Chair will ask 
some questions, too. I will try to keep it under the five 
minutes. I do want to again respond to my colleague, Mr. Smith, 
who suggested that perhaps the bill we are considering somehow 
overrides NEPA. That is not the case at all. And I do not 
believe it was ever the intent of the White House to override 
NEPA on the Texas blowdown decision. Rather, what we are simply 
trying to do is what the White House did, and that was to 
institute an effective use of the emergency provisions of NEPA 
to address a very severe forest condition.
    And the process that Mr. Smith referred to in the second 
part of his question--the first being what is an emergency; the 
second is are we overriding NEPA--the process is allowed in 40 
CFR Section 1506.11, to which Ms. McGinty also refers in her 
letter to us regarding this very situation. So this bill does 
no more than what the White House did in intervening in the 
blowdown situation. And I would be happy to work with any of 
the Members to make sure that the bill does achieve those ends.
    My questions are for Stan Hamilton. Mr. Hamilton, how will 
this proposed legislation make a difference in the Douglas-fir 
bark beetle problem in Idaho, as you see it?
    Mr. Hamilton. Madam Chairman, I think the answer to that is 
it will expedite the treatment of the material that is already 
down, dead and dying, and it will help to stop the spread of 
the insect infestation. The most important thing I think it 
will do is prevent insects from coming off of the Forest 
Service onto private land ownership through the use of 
treatments, and that will have a substantial impact on the 
community.
    Mrs. Chenoweth. Are there other agencies and organizations 
that are cooperating in this effort in Idaho?
    Mr. Hamilton. Several. First of all, I think that between 
the Department of Lands, who does deal with some of the Forest 
Service programs and works with industrial private landowners, 
we have had a very good cooperation in this process. The 
University of Idaho Extension Service has been very effective 
in helping to spread the word on what the problems are and how 
to deal with the problems. Everybody knows what the problem is, 
it is how do you deal with it. How can we, as private 
landowners, how can we salvage, how can we prevent the 
infestation from getting worse and taking out trees that we 
would like to leave there. The local community of Coeur 
d'Alene, Kootenai County, have been involved in this, and we 
have had a lot of good cooperation and good participation.
    Mrs. Chenoweth. Mr. Hamilton, in your view, what has the 
Forest Service done, if anything, to help adjacent private 
landowners to reduce the threat of the bark beetle infestation 
into their private property?
    Mr. Hamilton. There are several things. They are, again, 
working with other agencies to provide technical assistance and 
information on how to deal with the infestation. They are 
conducting mass trapping along the National Forest boundary, 
and that National Forest boundary here is several miles long, 
so it is a major situation. They have gone to EPA and asked 
them for an experimental system for--an experimental 
opportunity to use bark beetle pheromones. They are using those 
pheromones in two ways. One, to tell the beetle that lunch is 
being served in these trap trees. The second with a pheromone 
that says lunch is over, go away, do not fly here. And that 
seems to be helping. There are about 1,700 acres of private 
land immediately adjacent, and I think the Forest Service has 
tried to be a good neighbor there.
    The other thing that they are going to have to do, though, 
is, they are going to have to try to deal with the dead and 
down material that is there now. The pheromones cannot really 
help with that because once it is down it will burn, and it is 
just a case of when and how bad the fire is. But we have been 
very pleased with the way they have tried to work with the 
local folks.
    Mrs. Chenoweth. Thank you, Mr. Hamilton. I wanted to ask 
Mr. Phelps, in these conditions that you have described in 
Alaska, how appropriate is prescribed fire for resolving some 
of the problems?
    Mr. Phelps. That is an excellent question because it has 
been suggested, particularly, as I mentioned, on the Moose 
Range, by Fish and Wildlife Service, to use prescribed fire to 
deal with this. When you have as massive amount of acreage as 
we have with 85-100 percent mortality in the spruce there, 
prescribed fire is literally playing with fire. It does not 
make good sense because the ability to control it is too easy 
to lose. And if, for instance, you began a fire on the Kenai 
and it got out of your control, it would sweep the entire 
peninsula and would almost certainly destroy several 
communities and God knows how many people's homes, and lives 
could be lost as a result of that.
    When you have, to summarize, the kind of acreages with the 
kind of mortality rates that we are talking about, it would 
just be catastrophic to suggest to set fire to it. I do not 
think that without some very extensive efforts, you would be 
able to contain those within the areas that you wanted them to 
stay in. And, furthermore, with the live tree fire, with a live 
forest fire, in a spruce situation, or most conifers, you have 
this flaring that takes place that fires quickly, and it moves 
through and it runs up the tree because of the resin content. 
When you have a massive dead situation, particularly with a lot 
of fuel loading on the forest floor like we have in the Kenai, 
you could very well, if you had a fire, end up with a situation 
similar to the Umatilla where I logged 20 years ago before I 
went to Alaska, and their recent fires burned so hot and so 
close to the ground, it literally sterilized the ground on 
many, many acres. That is the kind of thing you could have in 
the Kenai if you had a major fire.
    Mrs. Chenoweth. I see. Well, gentlemen, I want to thank you 
very much for your time and, again, I want to thank you. I know 
my colleague, Mr. Smith, joins me in thanking you for traveling 
so far to add your valuable comments to the record. The record 
will remain open for ten working days should you wish to add to 
or amend your testimony, and you are welcome to do so within 
that time frame.
    So, again, thank you very much, and this panel is excused.
    The Chair now calls Sandra Key, who is the Associate Deputy 
Chief, Programs and Legislation, with the United States Forest 
Service here in Washington, DC.
    Ms. Key will be accompanied by Mr. Ron Raum, Forest 
Supervisor, National Forests and Grasslands in Texas, and Mr. 
Chris Holmes, Liaison to the EPA in the U.S. Forest Service. I 
welcome you and would ask all three of you to please stand and 
raise your right hand to the square.
    [Witnesses sworn.]

 STATEMENT OF SANDRA KEY, ASSOCIATE DEPUTY CHIEF, PROGRAMS AND 
  LEGISLATION, U.S. FOREST SERVICE; ACCOMPANIED BY RON RAUM, 
 FOREST SUPERVISOR, NATIONAL FORESTS AND GRASSLANDS IN TEXAS, 
 AND MR. CHRIS HOLMES, LIAISON TO THE EPA, U.S. FOREST SERVICE

    Ms. Key. Good afternoon, Madam Chairman and Members of the 
Subcommittee. Thank you for the opportunity to be here and hear 
this fruitful discussion and to discuss with you your draft 
legislation for alternative arrangements for environmental 
analysis and the National Environmental Policy Act, NEPA, 
compliance in emergency situations in the National Forest 
System.
    As you mentioned, I am the Associate Deputy Chief for 
Programs and Legislation. I have also served as a Forest 
Supervisor and am familiar with many of the situations that 
face us in this field.
    As you probably remember, last year the Forest Service 
testified before this Subcommittee on a very similar piece of 
legislation, and I am going to preface my remarks by saying 
that we have not had sufficient time to fully analyze this 
bill, and we recognize that it is a draft, and so my testimony 
is our initial reaction.
    The National Environmental Policy Act is our basic national 
charter for protection of the environment. It establishes 
policy, sets goals, and provides the means for implementing the 
policy. The regulations issued by the Council on Environmental 
Quality in 1978 which implement NEPA provide for alternative 
arrangements to the normal procedures in emergency situations.
    The CEQ regulations state, and I quote: ``Where emergency 
circumstances make it necessary to take an action with 
significant environmental impact without observing the 
provisions of these regulations, the Federal agency taking the 
action should consult with the Council about alternative 
arrangements. Agencies and the Council will limit such 
arrangements to actions necessary to control the immediate 
impacts of the emergency. Other actions remain subject to NEPA 
review.''
    In addition, the Forest Service NEPA procedures supplement 
this guidance by instructing forests to consult with the 
Washington Office on all nonfire emergencies when they think it 
may require consultation with CEQ about an alternative 
arrangement.
    As you said, Madam Chairman, an emergency designation does 
not eliminate NEPA. It does not eliminate the public 
involvement or the environmental analysis. It does shorten the 
time frame, which is why you have the interest in it, I 
believe.
    Let me discuss the three emergencies that we, the Forest 
Service, have sought and gotten approval since 1978 as 
emergencies. In 1992, in Portland, in September, the city was 
running out of water. They petitioned us for an emergency 
designation to pump 1.7 billion gallons from Bull Run Lake, 
hence, lowering it between what we had said was the threshold 
for lowering it. We and they understood that that was going to 
alter the ecology, affect the sediment in their water supply, 
and kill many of the fish population, but still, because of the 
threat to human health and well being, that exemption was 
granted, and they did pump a half-billion gallons before it 
finally rained. The good Lord intervened, if you would.
    In 1996, the Forest Service and BLM experienced the Eighth 
Street Fire in your own home state. The Cascade Resource Area 
and the Boise National Forest underwent a devastating fire that 
impacted the watershed for the community of Boise. Again, we 
sought and got the emergency designation so that we could begin 
the rehab immediately because we knew that those were key 
watersheds not just for groundwater supply, but also for 
groundwater recharge. And we also knew from experience that in 
the 1950s downtown Boise had flooded very badly in a similar 
situation.
    The third example, and one that I will not spend a great 
deal of time with because I have the Forest Supervisor from the 
Texas National Forest here with me today to answer your 
questions, is what took place in Texas last year, and it is a 
fine example. I spent the morning hearing about it. Last year, 
103,000 acres were damaged in the Texas National Forest. 
Because of the threat to the endangered red-cockaded woodpecker 
and the fire threat to private property, we sought, and he 
sought, emergency designation, and it was granted.
    Now, that term ``emergency,'' I was delighted to hear you 
all do some discussing about what it means and what the 
definition of emergency is because it turns out, as you weave 
your way through our processes, we actually have two 
definitions.
    The definition under the CEQ regulations is not written 
down. It is one that has evolved over time. So, let me share 
with you what we believe it is. That definition says that an 
emergency is such that these components must exist:

          First, if you do not take action, there will be an 
        immediate threat to life, property, or violation of 
        law.
          Secondly, there will still be the opportunity for 
        public comment and notification.
          Thirdly, the environmental analysis process will be 
        documented and available to the public.
          Fourth, that a monitoring plan and adjustments will 
        be made throughout the project. Again, it does not put 
        NEPA aside, as you said, but it can shorten the time 
        frame.
    A second process, and one that struck me today that may be 
more applicable, is what we call an emergency under our 
regulations, and what we use often with salvage, when we ask 
for an exemption from implementation on a salvage bill like 
many of the processes discussed here today. It, again, does not 
set aside public input or appeals or litigation, but what it 
does do is allow us to move forward with implementing the 
decision while the appeals take place, thus allowing us 
valuable time to save the timber values that were discussed by 
the other folks appearing before your Committee.
    I would like to conclude by saying, indeed, most of the 
situations in your bill are serious. They are particularly 
serious if, like Mr. Hayes, it is in your back yard. What I 
would say to you is that under the emergency definition for our 
CEQ process, I do not believe they qualify as an emergency. We 
think that the NEPA process has worked, and that the current 
emergency designation is available, and when we have sought it 
we have been able to get it.
    We appreciate your interest in this issue and are looking 
forward to working with you on it. I will take questions when 
you feel it is appropriate.
    [The prepared statement of Ms. Key may be found at the end 
of the hearing.]
    Mrs. Chenoweth. Thank you, Ms. Key. I appreciate your 
testimony and the information you have brought to the 
Committee. I would like to, with your permission, ask Mr. Raum 
to respond to a question.
    Mr. Raum, I am interested in the procedures you followed 
after the windstorm last year. Could you explain the events 
that occurred beginning in February with the storm, how you 
determined that emergency measures were needed, how you 
requested the alternative arrangements from CEQ, and what steps 
you took to complete actions under the alternative 
arrangements?
    Mr. Raum. Yes, ma'am. Thank you very much, Madam Chairman, 
I appreciate the opportunity to be here and share our Texas 
experience with the Committee.
    In February of 1998, we experienced a hurricane-strength 
windstorm that started north of Houston, worked its way 
approximately 150 miles to the northeast, and miraculously died 
out before it went into Louisiana. But in its wake, it did 
leave 103,000 acres of damage on three National Forests. The 
damage varied from a few scattered trees per acre to 12,000 
acres that were very reminiscent of what you saw in the 
aftermath of Hurricane Hugo--total devastation, no live trees 
left standing.
    Even the second day as we began to do our damage 
assessment, it was apparent that we had to act very quickly, 
and we established three objectives to guide our actions early 
on. First, we felt like we had to take immediate action to try 
and prevent catastrophic wildfires from occurring in this area 
of very mixed public/private ownership. Within our proclamation 
boundary, about half of the land base is in private ownership, 
and only half is in National Forest administration. So, we had 
the fire problem that we were looking at.
    Secondly, we had an endangered species, the red-cockaded 
woodpecker, that requires live standing pine trees for its home 
and for its habitat. And we had some very significant damage 
that occurred in what we call our ``habitat management'' area.
    The third objective that we established was to try and 
reduce any further damage either to private property, the 
Federal timber resource, or threaten an endangered species 
habitat from further attack by bark beetle later on in the 
summer.
    From the very beginning, we had Forest Service research 
biologists and biologists from the Fish and Wildlife Service 
who were explaining to me the experiences they had learned from 
the aftermath of Hurricane Hugo in South Carolina. There quite 
a bit of the down material was removed from the forest, but 
quite a bit they simply did not have the resources to go in and 
remove that material.
    What they found happened was that over time the material 
that was left laying in the woods got very doughty and began to 
rot. They could no longer use a prescribed fire program there 
in South Carolina to maintain the red-cockaded woodpecker 
habitat. Subsequently, we find ourselves today with a very deep 
drop in the population of that endangered species in South 
Carolina.
    So, from the very beginning, the scientists were telling me 
that we needed to move quickly in order to avert that type of 
damage to the population of an endangered specie. I sought 
guidance from our Regional Office, who subsequently helped me 
come to DC to present our case to our Washington Office staff 
and to the Chief himself. Subsequently went over and visited 
with the Council on Environmental Quality in an informal 
setting, to explain what had happened to us in Texas, and also 
to lay out some plans that we had for trying to move quickly 
but, at the same time, embody the essential elements of NEPA.
    If memory serves me correct, it was March 4 of last year 
that we formally requested alternative arrangements from CEQ, 
and then on March 10 the Chairman of CEQ granted alternative 
arrangements to us. So, in a matter of one month we were able 
to move from damage assessment to plan of attack and, 
subsequently, to alternative arrangements.
    Mrs. Chenoweth. Mr. Raum, you said in the period of one 
month?
    Mr. Raum. Yes, ma'am. The alternative arrangements that 
were granted were actually worked out in concert between the 
Council and ourselves. We did not go in and just ask for carte 
blanche permission to ignore NEPA, but rather we went in with 
what we thought was a well balanced approach to complying with 
NEPA but having relief from some of the normal time frames. And 
what we ended up with, ma'am, was one for the 70-80,000 acres 
where we thought bark beetle attack would have a significant 
impact on us. We elected to ask for, and subsequently received, 
approval to use an environmental assessment in lieu of an 
environmental impact statement. We did that analysis over about 
a four-month period, and came out with a decision. And in the 
final analysis, it was good that we went through that because, 
as I made my final decision, of the 70-80,000 acres we elected 
and felt it was prudent to take action only on about 9,500 of 
those acres. So, it was good that we did go through the 
analysis.
    Mrs. Chenoweth. So, from beginning to end, how long did the 
process take?
    Mr. Raum. The actual NEPA process itself, we issued a draft 
EA in mid-March of last year and, ma'am, if memory serves me 
correct, it was late June when I actually signed the decision 
notice.
    Mrs. Chenoweth. And the blowdown occurred in December, did 
you say?
    Mr. Raum. No, ma'am, in February.
    Mrs. Chenoweth. In February.
    Mr. Raum. Yes, ma'am, but we were allowed, under the 
alternative arrangements, to take action on approximately 
25,000 acres, without the benefit of the environmental 
assessment.
    Mrs. Chenoweth. And the 25,000 acres contained a bark 
beetle infestation?
    Mr. Raum. Yes, ma'am.
    Mrs. Chenoweth. Now, how does this compare to the normal 
NEPA process?
    Mr. Raum. If I were starting from scratch on that project, 
number one, I would have elected to do an environmental impact 
statement because there were significant--although there were 
positive, there were significant effects to threaten an 
endangered species habitat, and that would have taken, at a 
bare minimum, eight months to a year probably for a well done 
environmental impact statement. So, using the environmental 
assessment that we were allowed to use significantly cut down 
on that time.
    Mrs. Chenoweth. Very interesting. Very interesting. Thank 
you very much. The Chair now recognizes Mr. Smith for 
questions.
    Mr. Smith. Thank you. As I was actually discussing with the 
Chair off-mike there, the way the process works is, within NEPA 
there is an exception in certain emergencies to do an expedited 
process, in essence. So, the exception is part of NEPA, but the 
question is, do you have to follow the details of NEPA before 
you move forward, or can you do it in an expedited process. And 
the crux of this whole thing is what constitutes an emergency, 
and the premise of what is being put before us is that you 
folks quite simply, in the Forest Service, are not recognizing 
the emergencies as quickly or as frequently as you should.
    Now, there are a lot of situations out there, certainly, 
where salvage logging is appropriate, and if salvage logging 
goes through the normal as opposed to the expedited NEPA 
process, you can do that. What this bill is saying is now 
there's a lot of situations out there where you have got to go 
to the expedited process, and you are not doing it.
    So, I guess the question that I would have is, how do you 
respond to that, first of all. Second of all, how would you 
specifically differentiate? Look, in Texas, here is what was 
going on versus in Idaho or in any one of these other areas 
where an emergency has not been declared, it is different for 
this reason.
    Ms. Key. I would like to discuss that because it goes to 
that issue of the definition of an emergency. And under the CEQ 
regulations, the definition of emergency that has evolved is 
one where there will be an immediate threat to life or 
property, or a violation of law if this action is not taken.
    In the Texas situation, we had a threat to personal 
property and life, therefore, because of the interspersed 
private property and the very likelihood of fire. And we had 
the second issue of a violation of the Endangered Species Act 
because of the red-cockaded woodpecker. So those were the two 
circumstances driving that decision.
    When you look at some of the other situations that are 
identified in the bill and you make that test, we do not 
believe they are there in terms of the CEQ definition of 
emergency, but if you look at the definition of emergency under 
our appeal regulations and the things that we can do to 
expedite the process under those regulations, many of those 
situations do, particularly when we ask for permission to go 
ahead with the implementation of the actions before the appeals 
have been fully heard and vetted.
    Mr. Smith. One of the things I wanted to touch upon, there 
has been a presumption sort of running through all the prior 
testimony that, by definition, in an emergency situation, you 
log. And I am wonder if that is--that could be true, I do not 
know. I do not know the situation that much. But it seems to me 
that it is at least possible that an emergency may give rise to 
other actions other than going in and clearing out timber, and 
I am just wondering if you could comment on that.
    Ms. Key. You are absolutely correct. I think most instances 
would involve some amount of logging when we have an emergency, 
however, the example I gave the first time we ever used this 
emergency exemption, it was simply to draw water down for the 
city of Portland and involved no logging.
    Mr. Smith. And to even do something like that, you would 
ordinarily have to go through a very complex environmental 
process, but this gives you the right to do that in an 
expedited fashion.
    Ms. Key. That is correct.
    Mr. Smith. Thank you very much.
    Mrs. Chenoweth. I have one more question I would like to 
ask Mr. Raum. In follow-up to Mr. Smith's question, 
specifically what techniques did you utilize in Texas. Did you 
utilize logging, in part?
    Mr. Raum. Yes, ma'am, we did. Over the period April through 
October, we were able to remove down material from 
approximately 29,000 acres that were damaged by the windstorm. 
We used a variety of logging techniques, including helicopter 
logging in sensitive soil areas. But logs were taken out over 
29,000 acres, and certainly helped us meet our three objectives 
for responding to the emergency.
    Mrs. Chenoweth. I see. I wanted to ask Ms. Key, what is the 
process a Forest Supervisor would use to apply for an 
alternative arrangement. What would you require?
    Ms. Key. May I give you two answers on that. First, the 
formal process in which the Forest Supervisor would send 
through the Regional Forester to the Washington Office a letter 
requesting it. The Washington Office forwards to the Department 
and then to CEQ. CEQ would write a letter back approving or not 
approving. The reality is, as you can well imagine, in an 
agency where we work together as closely as we do in the Forest 
Service, you have a serious situation, a crisis, a catastrophe, 
and immediately when that happens, you as the Supervisor pick 
up the phone and call the Regional Forester, who immediately 
picks up the phone and even calls the Chief at home, and it 
passes on up. So, this is informal discussion, and I think Mr. 
Raum can attest that is the way it happened in his situation 
also. So, by the time the formal process is followed with a 
written request, there has been an ongoing dialogue around it.
    Mrs. Chenoweth. Well, I thank you very much, Ms. Key, Mr. 
Raum, and Mr. Holmes. Mr. Holmes, I did not mean to ignore you, 
but sometimes people feel good about that on this Committee.
    Ms. Key. Madam Chairman, may I offer you two things that 
may be helpful to you. When we looked at the situation and 
worked with your staff, two things came to mind that we may be 
able to do that might be helpful, and I think you would be 
interested in.
    First of all, in our training of our Forest Supervisors, 
they go through, as you can well imagine, extensive NEPA 
training. We agreed that it might be useful to emphasize that 
these processes are available so that our line officers know 
this and have them in their mind.
    The second thing is, as we look at the map that you use 
using our data, it does indicate to us that we ought to be 
thinking on a larger scale about situations like they are 
experiencing in Idaho and that we heard about in Alaska. So, 
what I would offer to you is that we will evaluate some of 
these situations that we have had over the last three or four 
years, see what has worked, what has not worked, and evaluate 
the possibility perhaps of a team of experts that could be 
offered to a Forest to help expedite some of these situations.
    Mrs. Chenoweth. Ms. Key, I appreciate your comments, and I 
know that when you say that, you will do it. I have followed 
your career and respect the work that you have done in the 
Forest. I do want to continue to work with you on the 
legislation, while you are evaluating other situations.
    For instance, in the Idaho Panhandle National Forest, I 
believe that we clearly meet all the criteria that has been 
laid out. We do have endangered species, the grizzly bear. The 
lynx and salmon will be listed. We have got them coming out our 
ears. I would be happy to give other states some of our 
endangered species. Imminent threat to human life or property, 
we do have those criteria. And as we put the bill together, we 
did think of those criteria. And so I would very much 
appreciate your looking at it from those points of view, and if 
you need specifics with regard to how critical are the criteria 
that we can present for each one of these Forests, and it is 
just a limited number of Forests that we do have in the NEPA 
parity bill, I would love to be able to work with you on it 
because I think we do meet those definitions. But also I am 
pleased that you are going out under the regular process, too, 
and appreciate your work there.
    I do want to ask any one of the three of you--Ms. Key, Mr. 
Raum, or Mr. Holmes--if you have anything else you would like 
to add for the record.
    [No response.]
    If not, I do want to say that I appreciate your being here. 
I appreciate your valuable testimony, you have added a lot to 
the record. And this hearing record will remain open for ten 
working days. Should you wish to add or amend your statement, 
you are welcome to do so. My staff and I have additional 
questions. Time will not permit us asking them right now, but 
they are additional questions, and we will be submitting them 
to you and would appreciate your responding at your very 
earliest convenience.
    With that, this hearing is adjourned.
    [Whereupon, at 3:50 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
    Statement of Jack E. Phelps, Executive Director, Alaska Forest 
                     Association, Ketchikan, Alaska

    Madam Chairman and Members of the Subcommittee:
    My name is Jack Phelps and I am the Executive Director of 
the Alaska Forest Association, the statewide forest products 
industry trade association for Alaska. The AFA represents 
approximately 100 member companies, mostly small businesses, 
doing business in the forest products industry in Alaska. In 
addition, the AFA represents approximately 200 Associate member 
companies who provide goods and services to Alaska's statewide 
timber industry. The mission of the Alaska Forest Association 
is to advance the restoration, promotion and maintenance of a 
healthy, viable forest products industry, contributing to 
economic and ecological health in Alaska's forests and 
communities.
    The state of Alaska contains within its borders 248,000,000 
acres of Federal land, including the two largest forests in the 
191,000 acre National Forest System. These two forests are the 
Tongass and the Chugach National Forests encompassing nearly 17 
million acres and more than 5.5 million acres, respectively.
    Because of the high amount of annual rainfall in Southeast 
Alaska, fire is not a major problem in the Tongass National 
Forest. The principal disturbance event in the Tongass is 
windthrow. Large windthrow events of up to several hundred 
acres are not uncommon, and if the event occurs in areas 
designated for timber management, the Forest Service commonly 
includes salvage opportunities in its timber sale program.
    From a forest health and stand diversity standpoint, the 
creeping mortality of Alaska cedar (commonly referred to as 
yellow-cedar) is of greater concern. Approximately 479,000 
acres of yellow-cedar decline has been mapped on the Tongass. 
The decline has been developing over many years, but it 
appeared to have accelerated in 1996 and 1997. Researchers are 
divided over the exact cause of this Alaska cedar decline, but 
many believe it to be related to soil conditions. Whatever the 
cause, it presents strong potential for economic salvage 
opportunities. Region 10, together with researchers from Oregon 
State University and the Forest Products Laboratory at Madison, 
Wisconsin are investigating the properties of dead and standing 
Alaska cedar. AFA member companies are cooperating in these 
studies.
    A much larger forest health crisis is facing Alaska in the 
Southcentral region of the state, affecting the Chugach 
National Forest as well as state, private and other Federal 
ownerships in the area. This is the unprecedented epidemic of 
spruce bark beetle infestation on the Kenai Peninsula, in the 
Anchorage and Matanuska-Susitna areas and in the Copper River 
valley. The epidemic has resulted in heavy mortality of white, 
Sitka and Lutz spruce on more than 3 million acres. In many 
areas, mortality associated with the beetle infestation exceeds 
85 percent and in some parts of the Kenai is 100 percent. 
Impacts include loss of the merchantable value of trees, 
wildlife and fish habitat, scenic qualities and the prospect of 
long term stand conversion and fire hazards. The stand 
conversion problem is exacerbated by the prevalence of invasive 
grasses which will impede and, in some cases, prevent natural 
reforestation.
    Forestry responses to this heavy mortality have been mixed. 
Alaska Native corporation landowners have been harvesting their 
trees, salvaging value and creating economic activity in both 
the western Kenai and in the Copper River area. The state, 
though initially slow to act, has been aggressive in recent 
years in selling dead and dying timber from beetle infested 
stands. Nearly 1.5 million seedlings have been planted on state 
lands in the past 5 years, all paid for by the timber sale 
program which harvested primarily beetle killed and beetle 
damaged trees. This mechanical reforestation will ensure that 
the harvested state lands will in the future host a healthy 
spruce forest once again--a situation that would be unlikely 
had the state chosen to leave the dead trees untended.
    Federal land managers, on the other hand, have been 
paralyzed, and have taken virtually no action to address the 
massive loss of spruce forests, either on the Kenai or in the 
Copper River area. In 1996, under the provisions of the salvage 
law passed by Congress in 1995, the Forest Service prepared 
NEPA documents for the salvage of 116.6 million board feet of 
timber from 18,520 acres. The cost of the NEPA documentation 
ran to more than $7 million. The sales were challenged in 
court, and after spending approximately $35,000 on litigation, 
the Forest Service simply decided to drop the salvage program. 
That it did this at a time when a very high timber market was 
developing, makes the decision all the more indefensible. The 
agency thus chose to throw away the taxpayers' money already 
spent on NEPA and to forgo activities that would have been 
beneficial to both the local economy and the forest. Had the 
Federal agency followed the lead of the state, the Chugach 
National Forest could have used the salvage sale program to 
ensure the reforestation of such ecologically important and 
tourism sensitive areas as Kenai Lake and Moose Pass.
    It is important to note that not all, or even the majority, 
of beetle-damaged Federal lands in Southcentral Alaska are 
under the control of the USDA Forest Service. Much of the 
heavily infested land in the Copper River area is controlled by 
the National Park Service. About one third of the beetle 
affected lands on the Kenai peninsula are under Federal 
ownership. The largest part of that is on the 1.9 million acre 
Kenai National Wildlife Refuge. Last year alone, the Refuge 
suffered active beetle infestation on more than 23,000 acres. 
On the other hand, total affected acreage on the Chugach 
National Forest (including both active infestations and 
mortality from prior years) is just over 30,000 acres. Both the 
Forest Service and the U.S. Fish and Wildlife Service could, 
and should, allow for the harvest of some of this timber to 
provide for mechanical reforestation. Long term forest health 
and wildlife would both benefit from such activity.
    Rapid action on the part of the landowner is critical to 
making the relationship between timber harvest and forest 
restoration effective. When the beetle infested trees die, they 
begin to lose value as sawlogs within the first 3 years. This 
is the period during which the greatest economic return is 
available to provide for the costs of reforestation. From 4 to 
7 years after mortality, the spruce retain value for chips and, 
to some extent, house logs and some other uses. By the 8th 
year, most of the economic value is lost, and the opportunity 
for timber harvest to pay the costs of forest regeneration is 
lost. For this reason, it is appropriate for Congress to 
provide for an expedited process to allow the government to 
manage its lands in a responsible manner, taking advantage of 
the marketplace to fund that management.
                                ------                                


     Statement of Sandra Key, Associate Deputy Chief, Programs and 
                    Legislation, USDA Forest Service

    MADAM CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:
    Thank you for the opportunity to discuss your draft 
legislation for alternative arrangements for environmental 
analysis and National Environmental Policy Act (NEPA) 
compliance in emergency situations in the National Forest 
System. I am Sandra Key, Associate Deputy Chief for Programs 
and Legislation. I am accompanied today by Chris Holmes, the 
Forest Service's liaison with the Environmental Protection 
Agency (EPA) and the Council on Environmental Quality (CEQ) and 
Ronnie Raum, Forest Supervisor of the National Forests in 
Texas.
    The Forest Service testified last year on a similar piece 
of legislation, H.R. 4345, at a hearing before this 
Subcommittee on July 28, 1998. I preface my remarks by saying 
the Administration has not had sufficient time to analyze fully 
the most recent draft of your proposed legislation, thus my 
testimony reflects our initial reaction. While we notice some 
changes to the proposal submitted last year, we still feel 
existing authority is appropriate and adequate to administer 
our nation's 192 million acres of national forests and 
grasslands.

Background

    The National Environmental Policy Act (NEPA) is our basic 
national charter for protection of the environment. It 
establishes policy, sets goals, and provides the means for 
implementing the policy. The regulations issued by the Council 
on Environmental Quality (CEQ) in 1978 that implement NEPA 
provide for alternative arrangements to the normal NEPA 
procedure in emergencies:

        Where emergency circumstances make it necessary to take an 
        action with significant environmental impact without observing 
        the provisions of these regulations, the Federal agency taking 
        the action should consult with the Council about alternative 
        arrangements. Agencies and the Council will limit such 
        arrangements to actions necessary to control the immediate 
        impacts of the emergency. Other actions remain subject to NEPA 
        review. (40 C.F.R. 1506. 11)
    The Forest Service NEPA procedures supplement this guidance by 
instructing forests to consult with the Washington Office on 
emergencies, other than fire, that may require consultation with CEQ 
about an alternative arrangement.

Examples of Emergencies

    The Forest Service and CEQ have used the emergency provision in the 
CEQ regulations on only three occasions since 1978.
    Due to severe drought in the summer of 1992, the City of Portland, 
Oregon requested permission from the Mt. Hood National Forest to pump 
1.7 billion gallons of water from Bull Run Lake to meet the emergency 
needs of the city for domestic water supplies. While the Forest Service 
believed that such action would increase sediments within the drinking 
water supply and kill fish and alter significantly the ecology of the 
lake, it also understood the emergency situation that Portland was 
facing.
    CEQ concurred with the Forest Service that an emergency situation 
existed, and agreed that the Forest Service could drawdown the lake 
prior to NEPA documentation. In this case, the alternative to normal 
NEPA procedures permitted the Forest Service to prepare an 
Environmental Assessment (EA) after the emergency action was taken.
    The city pumped approximately 500 million gallons from Bull Run 
Lake between September 12, and September 28, 1992. Much needed rain 
fell during late September through early October, ending the need for 
further emergency withdrawals as by mid-October the lake returned to 
pre-emergency levels.
    In 1996, the Forest Service and Bureau of Land Management (BLM) 
found it necessary to take immediate action in the Cascade Resource 
Area and the Boise National Forest in Idaho. These areas included 
multiple watersheds adjacent to the City of Boise. Over fifteen 
thousand acres of Federal, state, and private lands were burned in the 
human-caused Eighth Street Fire which started on August 26, 1996. After 
the fire was extinguished, immediate rehabilitation was needed to 
minimize the threats to human life and property, deterioration of water 
quality, and loss of soil productivity that could have resulted from 
flooding, mud slides, and debris torrents from the burned area. The 
area was critical because of its location in a key watershed, that 
functions as the primary ground water recharge area for the Boise Front 
aquifer, the source of groundwater wells for the City of Boise and 
other municipalities. In addition, increased runoff potential 
threatened buildings and homes immediately below the burned area.
    Several urgent circumstances called for applying the emergency NEPA 
provisions to the Eighth Street Fire. First, recent events showed the 
potential for damage. A moderate rainstorm following fires in the same 
general area in the 1950's caused flooding of a large portion of Boise, 
including the downtown corridor. Second, local and state governments 
were consulted and supported the proposed actions. Third, the project 
received extensive public review and support. Fourth, as would have 
been required under NEPA, the Forest Service discussed alternative 
treatments and reviewed their effects on wilderness and threatened or 
endangered species.
    Last year, the Forest Service again requested alternative 
arrangements with CEQ for emergency actions to restore immediately 
portions of approximately 103,000 acres of forested lands on the 
National Forests and Grasslands in Texas damaged by the February 10, 
1998, windstorm. The agency believed it would have taken up to six 
months using normal NEPA procedures before it could start restoring the 
damaged ecosystem, that including critical habitat for red-cockaded 
woodpecker and bald eagle. Such a delay could have resulted in further 
habitat loss for these threatened and endangered species from fires and 
bark beetle attack reversing the success rates with the red-cockaded 
woodpecker and bald eagle nesting habitat. We were also concerned that 
the delay would cause undue risk to adjacent private property from 
potential fire and insect damage.
    Bark beetle risk reduction was one of the reasons for requesting 
alternative arrangements initially. As the entire incident unfolded and 
we did additional effects analysis, we found that the science did not 
support the notion that blowdown material would increase the risk of 
bark beetle attack. The two most prominent reasons for our alternative 
arrangements rested on avoiding further damage to an endangered species 
(the red-cockaded woodpecker) and fuel loading reduction to avoid 
catastrophic fires.
    Where emergency circumstances make it necessary to take action 
without observing the provisions of the NEPA regulations, the Federal 
agency consults with CEQ about alternative arrangements. Often, actions 
proposed to be taken in emergency situations do not rise to the 
environmental significance level, and therefore, do not require 
alternative arrangements. For these situations, the Forest Service 
follows its normal NEPA procedures.
    Generally, there are four components that proposals must have 
before an alternative arrangement is considered an emergency. First, 
without taking the proposed action, there must be immediate threats to 
life and property or both, or possible violation of law, such as the 
Endangered Species Act (ESA). Second, the public must be provided an 
opportunity to comment on the project. Third, the agency must still 
document the environmental analysis that goes into the decision. 
Fourth, there are provisions for monitoring and adjustments as we 
proceed with the project, including an evaluation of the project once 
it is completed.
    In each of the three cases I described, a catastrophe had created 
an emergency situation requiring immediate and significant action. Each 
case clearly demonstrated interagency coordination and agreement 
regarding the urgency for immediate action and clear disclosure to the 
public of that need. There was also strong support from involved State 
and Federal agencies for the proposed activities.
    Numerous catastrophic events occur each year affecting the National 
Forest System. Rarely, however, do these events constitute an emergency 
that justifies altering our normal NEPA review processes. The fact that 
only three referrals for alternative arrangements have been made by the 
Forest Service to CEQ since 1978 is evidence that such referrals are 
only done in unusual circumstances.

Discussion of Legislation

    While the Forest Service recognizes the catastrophic nature of some 
of the events described in the bill, they do not rise to the level of 
emergency status. NEPA has been valuable in integrating environmental 
considerations into agency planning for the past 30 years. The Forest 
Service has only used the alternative arrangements three times in the 
last 20 years, demonstrating that this provision is not necessary for 
the vast majority of projects.
    In conclusion, we believe that the procedure we use for requesting 
alternative arrangements to NEPA compliance for emergencies works. The 
existing authority is appropriate and adequate to administer our 
national forest and grasslands.
    We appreciate the Committee's interest in the alternative 
arrangements provision of NEPA, and we understand the Committee's 
desire to use this extraordinary process more broadly. However, we 
believe the current process is working well. I welcome any questions 
the Subcommittee may have.



[GRAPHIC] [TIFF OMITTED]56677.001

[GRAPHIC] [TIFF OMITTED]56677.002

[GRAPHIC] [TIFF OMITTED]56677.003

[GRAPHIC] [TIFF OMITTED]56677.004

[GRAPHIC] [TIFF OMITTED]56677.005

[GRAPHIC] [TIFF OMITTED]56677.006

[GRAPHIC] [TIFF OMITTED]56677.007

[GRAPHIC] [TIFF OMITTED]56677.008

[GRAPHIC] [TIFF OMITTED]56677.009

[GRAPHIC] [TIFF OMITTED]56677.010

[GRAPHIC] [TIFF OMITTED]56677.011

[GRAPHIC] [TIFF OMITTED]56677.012

[GRAPHIC] [TIFF OMITTED]56677.013

[GRAPHIC] [TIFF OMITTED]56677.014

[GRAPHIC] [TIFF OMITTED]56677.015

[GRAPHIC] [TIFF OMITTED]56677.016

[GRAPHIC] [TIFF OMITTED]56677.017

[GRAPHIC] [TIFF OMITTED]56677.018

[GRAPHIC] [TIFF OMITTED]56677.019

[GRAPHIC] [TIFF OMITTED]56677.020

[GRAPHIC] [TIFF OMITTED]56677.021

[GRAPHIC] [TIFF OMITTED]56677.022

[GRAPHIC] [TIFF OMITTED]56677.023

[GRAPHIC] [TIFF OMITTED]56677.024

[GRAPHIC] [TIFF OMITTED]56677.025

[GRAPHIC] [TIFF OMITTED]56677.026

[GRAPHIC] [TIFF OMITTED]56677.027

[GRAPHIC] [TIFF OMITTED]56677.028

[GRAPHIC] [TIFF OMITTED]56677.029


</pre></body></html>
